CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief Amicus
Curiae of The Justice Foundation, supporting the Petitioners’ Petition for a Writ of
Certiorari in No. 20-618, Routten v. Routten, contains 2,340 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
December 7, 2020
/s/ Allan E. Parker Jr.

Allan E. Parker Jr.
Counsel of Record
The Justice Foundation
8023 Vantage Dr., Suite 1275
San Antonio, TX 78230
(210) 614-7157
Parker4justice@gmail.com

